               Draft                                               EMPLOYMENT AND TRAINING

U.S. Department of Labor                                           ADMINISTRATION


                     Office of Inspector General—Office of Audit




                                                                   SUMMARY REPORT OF SUB-CONTRACTING AT
                                                                   SIX PRIVATELY OPERATED JOB CORPS
                                                                   CENTERS




                                                                                     Date Issued:   November 8, 2012
                                                                                  Report Number:     26-13-001-03-370
U.S. Department of Labor                                       NOVEMBER 2012
Office of Inspector General
Office of Audit                                                SUMMARY REPORT OF SUB-CONTRACTING AT SIX
                                                               PRIVATELY OPERATED JOB CORPS CENTERS

BRIEFLY…                                                       WHAT OIG FOUND
Highlights of Report Number 26-13-001-03-370, issued
to the Assistant Secretary for Employment and Training.        All six centers audited and their respective center operators
                                                               – Los Angeles (Young Women’s Christian Association of
WHY READ THE REPORT                                            Greater Los Angeles); Red Rock (Adams and Associates,
                                                               Inc.); Turner and Oneonta (Education and Training
From March 31, 2011, through June 22, 2012, we                 Resources, Inc.); and Clearfield and Paul Simon
issued a series of performance audit reports on                (Management and Training Corporation, Inc.) – did not
sub-contracting for six Job Corps centers operated by          always ensure best value to the Federal government when
private contractors. This report summarizes our                awarding sub-contracts and purchase orders. Additionally,
findings, recommendations, and the corrective actions          two centers (Clearfield and Paul Simon) did not support
the Employment and Training Administration (ETA) is            claimed costs by consistently obtaining required
making to improve guidance and oversight.                      documentation. In aggregate, we identified $8.7 million in
                                                               questioned costs – the total value of the sub-contracts and
Job Corps is a residential training program for                purchase orders awarded without ensuring best value.
disadvantaged youth where employability skills are
developed. Its training activities and living facilities are   These conditions occurred because the center operators
housed within 125 centers throughout the country. The          were not aware of the Federal and contractual requirements
Job Corps program is administered by the Employment            applicable to their procurement activities and did not
and Training Administration (ETA). Job Corps’ annual           establish the necessary controls to ensure compliance with
program budget is about $1.7 billion.                          their own procurement standard operating procedures.
                                                               Additionally, ETA did not effectively enforce the center
Job Corps’ 125 centers are operated for the U.S.               operators’ adherence to the procurement requirements for
Department of Labor by private companies through               Job Corps centers and did not provide adequate oversight
competitive contracting processes, and by other                of their sub-contracting practices.
Federal agencies through interagency agreements.
                                                               WHAT OIG RECOMMENDED
WHY OIG CONDUCTED THE AUDIT
                                                               We recommended ETA and the center operators both
Our six audits addressed the following question:               improve guidance and oversight over center sub-
                                                               contracting to ensure best value to the government.
  Did the centers and respective center operators              Furthermore, we recommended ETA recover any
  ensure best value to the Federal government when             monetary differences between the fair value of the
  awarding sub-contracts and claiming costs?                   services received and our questioned costs. The center
                                                               operators audited generally did not agree they had to
READ THE FULL REPORT                                           comply with Federal procurement requirements because
                                                               they were private contractors.
To view the report, including the scope, methodology,
and full agency response, go to:                               ETA generally agreed with our findings and
                                                               recommendations and indicated it has made
http://www.oig.dol.gov/public/reports/oa/2013/26-13-           programmatic changes to improve its own guidance and
001-03-370.pdf.                                                oversight over center sub-contracting.
                  U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





 Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                            Report No. 26-13-001-03-370
                                                            U.S. Department of Labor – Office of Inspector General




Table of Contents


Assistant Inspector General’s Report ......................................................................... 1


Summary of Results...................................................................................................... 3


Recommendations and ETA Corrective Actions ........................................................ 9


Appendices.................................................................................................................. 11

         Appendix A Background ..................................................................................... 13

         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 15

         Appendix C Acronyms ........................................................................................ 19

         Appendix D ETA Response................................................................................ 21

         Appendix E Acknowledgements ......................................................................... 23





                                     Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                                                                Report No. 26-13-001-03-370
                  U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





 Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                            Report No. 26-13-001-03-370
                                            U.S. Department of Labor – Office of Inspector General




U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




November 8, 2012

                        Assistant Inspector General’s Report


Ms. Jane Oates
Assistant Secretary
 for Employment and Training
200 Constitution Avenue, NW
Washington, DC 20210

From March 31, 2011, through June 22, 2012, we issued a series of performance audit
reports for six Job Corps centers operated by private contractors that addressed the
following question:

      Did the centers and respective center operators ensure best value to the
      Federal government when awarding sub-contracts and claiming costs?

This report summarizes our findings, recommendations, and the corrective actions the
Employment and Training Administration (ETA) is making to improve guidance and
oversight.

Job Corps is a residential training program for disadvantaged youth where employability
skills are developed. Its training activities and living facilities are housed within 125
centers throughout the country. The Job Corps program is administered by ETA per the
Department of Labor’s (DOL) authorization provided by the Workforce Investment Act of
1998 (WIA). Within ETA, the program is managed by the Office of Job Corps (Job
Corps), which consists of a national office and six regional offices. ETA’s Office of
Contracts Management assumed responsibility for Job Corps’ contracting, including
oversight of sub-contracting by the private center operators, from the Office of the
Assistant Secretary for Administration and Management in October 2010. Job Corps’
annual program budget is about $1.7 billion.

Job Corps’ 125 centers are operated for DOL by private companies through competitive
contracting processes, and by other Federal agencies through interagency agreements.
When sub-contracting for goods and services, the contracted center operators are
required to comply with the Job Corps’ Policy and Requirements Handbook (PRH) and
center operator contracts, which require compliance with applicable procurement
regulations, including those contained in the Federal Acquisition Regulation (FAR).




                          Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                           1                         Report No. 26-13-001-03-370
                                                     U.S. Department of Labor – Office of Inspector General


Table 1 below describes the centers and the respective center operators we audited:

Table 1: Job Corps Centers Audited
No.      Date         Center Name          Private Center Operator Contractor
        Report         (Location)
        Issued
 1     03/31/11        Los Angeles         Young Women’s Christian Association of Greater Los
                        (California)       Angeles (YWCA)
 2     09/30/11         Red Rock           Adams and Associates, Incorporated (Adams)
                      (Pennsylvania)
 3     09/30/11           Turner           Education and Training Resources, Incorporated (ETR)
                         (Georgia)
 4     06/22/12          Oneonta           ETR
                        (New York)
 5     03/30/12          Clearfield        Management and Training Corporation, Incorporated (MTC)
                          (Utah)
 6     03/30/12         Paul Simon         MTC
                         (Illinois)
Source: Issued OIG audit reports.

We interviewed ETA, center operator, and Job Corps staff; reviewed criteria
for center procurement activities, including Job Corps’ PRH and Procurement
Compendium, the FAR, center operator and center standard operating procedures
(SOPs), and center operator and Job Corps’ Regional Offices’ assessments of center
operations; reviewed applicable processes and controls; analyzed sub-contracts,
expenses, and related supporting documentation; and performed process walkthroughs
with key center operator staff.

The six audits covered sub-contracts managed and expenditures incurred by the respective
centers and center operators from October 1, 2009, to March 31, 2011, including:

     •	 All sub-contracts (and their related invoice payments) more than $25,000 managed
        by these center operators and centers during this period, which amounted to 44 sub-
        contracts totaling $17.4 million;

     •	 A statistical sample of 341 of 1,038 expenditures more than $3,000 from the 44
        center sub-contracts we reviewed, representing $3.3 million (or 41 percent of
        aggregate expenditures);

     •	 10 judgmentally selected expenditures totaling approximately $144,000; and

     •	 4 strategic agreements (sub-contracts) awarded by a corporate office, which 

        resulted in costs claimed by 2 of the 6 centers audited. 


This work covered ETA’s oversight of center operator sub-contracting through June 2012.

                                    Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                                     2                         Report No. 26-13-001-03-370
                                                           U.S. Department of Labor – Office of Inspector General




We conducted these six performance audits in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objective, scope, methodology and criteria are detailed in
Appendix B.

SUMMARY OF RESULTS

All six centers audited and their respective center operators – Los Angeles (YWCA), Red
Rock (Adams), Turner (ETR), Oneonta (ETR), Clearfield (MTC), and Paul Simon (MTC) –
did not always ensure best value to the Federal government when awarding sub-contracts
and purchase orders. Additionally, two centers (Clearfield and Paul Simon) did not support
claimed costs by consistently obtaining required documentation. In aggregate, we identified
$8.7 million in questioned costs – the total value of the sub-contracts and purchase orders
awarded without ensuring best value. Based on our testing, these questioned costs may be
as high as $11.5 million. 1

These conditions occurred because the center operators were not aware of the Federal
and contractual requirements applicable to their procurement activities and did not
establish the necessary controls to ensure compliance with their own procurement SOPs.
Additionally, ETA did not effectively enforce the center operators’ adherence to the related
procurement requirements for Job Corps centers and did not provide adequate oversight of
their sub-contracting practices.

We recommended ETA and the center operators both improve guidance and oversight over
center sub-contracting to ensure best value to the government. Furthermore, we
recommended ETA recover any monetary differences between the fair value of the
services received and our questioned costs. We acknowledge that the government
received services relating to these sub-contracts and recognize that in situations where the
difference is undeterminable, no cost recoveries will occur. ETA generally agreed with our
findings and recommendations and indicated it has made programmatic changes to
improve the center operators’ and its own guidance and oversight over center sub-
contracting.

Center Operator Procurement Policies and Procedures Should be Consistent with the FAR

According to Job Corps’ policy, center operators are contractually required to procure
goods and services on behalf of the program in conformance with its contract provisions
and the FAR principles. 2 The FAR allows for the approval of purchasing systems that

1
  In our six reports, we identified $8.7 million in total questioned costs – $7.5 million relating to the improperly awarded
sub-contracts plus statistical sample results of $1.2 million. See Tables 2 and 3 for details. As such, the aggregate
questioned costs could be as high as $11.5 million ($7.5 million plus our $4.0 million upper limit projection).
2
  Job Corps’ Procurement Compendium, Section 4.9.

                                     Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                                      3                         Report No. 26-13-001-03-370
                                                       U.S. Department of Labor – Office of Inspector General


demonstrate compliance with FAR principles after a rigorous review of the contractor’s
policies, procedures, and performance under that system. According to the FAR, these
reviews, known as Contractor Purchasing System Reviews (CPSR), should give special
attention to 13 attributes including: 3

    •	 Results of market research accomplished;
    •	 Degree of price competition obtained;
    •	 Pricing policies and techniques, including methods of obtaining certified cost or
       pricing data;
    •	 Methods of evaluating sub-contractor responsibility;
    •	 Planning, award, and post-award management of major sub-contract programs;
       and
    •	 Appropriateness of types of contracts used.

Because many Job Corps’ contractors operate multiple contracts and perform services in
several different Job Corps regions, Job Corps determined it is in the Government’s interest
to perform CPSRs to evaluate the efficiency and effectiveness with which these contracted
center operators spend Government funds and comply with Government policy when
contracting. 4 Consequently, center operators are responsible for establishing procurement
policies and procedures that are consistent with the FAR.

Non-Compliance with Sub-Contracts Greater than $25,000 Resulted in $7.5 Million in
Questioned Costs

In aggregate, we reviewed 44 sub-contracts (and their related invoice payments) more
than $25,000 managed by the center operators during this period, totaling $17.4 million,
and determined whether: (1) sub-contracts were awarded based on fair and open
competition; (2) cost or price analysis was performed and documented; (3) responsibility
checks were executed to determine the sub-contractors’ ability to satisfactorily perform
the contract; 5 and (4) documentation was maintained to support claimed costs. We
found 30 of the 44 sub-contracts awarded during the period reviewed were awarded
without ensuring the government received the best value and the sub-contractor could
satisfactorily complete the sub-contract because the center did not assess past
performance and technical skills and did not perform cost or price analysis. Twenty-one
of these sub-contracts were for physician services, including mental health and dental
care. As such, it was critical for the centers to ensure their students received adequate
care by evaluating the bids based on the quality of services to be provided as well as
cost. Responsibility checks that could have been considered for physician services
included past performance providing services to a diverse student population, ages
16-24; completing similar type contracts; writing and supervising treatment plans; and
providing individual and group therapy and training. Additionally, six sub-contracts were
awarded without adequate sole-source justification and four corporate sub-contracts

3
  FAR Subparts 44.202-2 and 44.301-303.

4
  Job Corps’ Procurement Compendium, Section 4.9.

5
  Responsibility checks are defined in FAR Subpart 9.104-1 and include evaluating past performance, technical

requirements, and ability to comply with proposed performance and delivery schedules.


                                  Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                                   4                         Report No. 26-13-001-03-370
                                                   U.S. Department of Labor – Office of Inspector General


were awarded without proper responsibility checks.

Table 2 shows the types of non-compliance and the number of sub-contracts and
questioned costs for each center audited.

Table 2: Instances of Non-Compliance for Sub-Contract Awards Greater than $25,000
Resulting In Questioned Costs
Non-Compliance                    Center Name (Operator)           Instances of
                                                              Non-Compliance and
                                                                Questioned Costs

Sub-contract award not based on            Los Angeles      (YWCA)               7          $ 2,402,596
proper evaluation/responsibility           Red Rock         (Adams)              2              216,780
checks                                     Turner             (ETR)              3              467,640
                                           Oneonta            (ETR)              6              474,900
                                           Clearfield         (MTC)              4              429,608
                                           Paul Simon         (MTC)              8            1,101,414
                                                           Sub-total:           30          $ 5,092,938

Inadequate sole-source justification       Clearfield        (MTC)               6          $ 2,384,165
                                                           Sub-total:            6          $ 2,384,165

Corporate contract award not based Oneonta                    (ETR)              2             $ 40,643
on proper evaluation/responsibility Turner                    (ETR)              2               10,803
checks                                                     Sub-total:            4             $ 51,446

                                                                 Total:         40          $ 7,528,549
Source: OIG analysis of Job Corps’ data.

Invoice Payments for Sub-contracts at Two Centers Lacked Required Supporting
Documentation

Two centers operated by MTC – Clearfield and Paul Simon – did not obtain and review
documentation supporting the validity of claimed costs for six sub-contracts we reviewed
(three each). For Clearfield, the center did not obtain and review supporting documentation
prior to payment for two physician contracts totaling $162,297 and for a third sub-contract
where $2,844 was paid for pharmaceutical supplies that were not received (based on our
review of receiving reports and related invoices). For Paul Simon, required documentation
to support billed hours for three physician sub-contracts was not obtained and reviewed
prior to payment. The three doctors billed $214,019 in unsupported hours. For the two
centers, a total of $379,160 in payments lacked adequate supporting documentation.
These costs were already included in the amounts we questioned because the
sub-contracts were improperly awarded.




                                  Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                                   5                         Report No. 26-13-001-03-370
                                                           U.S. Department of Labor – Office of Inspector General


Purchase Orders for Expenditures Greater than $3,000 Not Awarded as Required
Resulted in $1.2 Million in Questioned Costs

We similarly reviewed a statistical sample of 341 of 1,038 expenditures more than
$3,000 from the 44 center sub-contracts (totaling $3.3 million or 41 percent of aggregate
expenditures) and 10 judgmentally selected expenditures (totaling $144,428) to
determine whether (1) the related purchase orders were awarded based on fair and
open competition; (2) cost or price analysis was performed and documented; and
(3) documentation was maintained to support claimed costs. In aggregate, we
questioned $1.2 million in costs related to 126 expenditures that lacked evidence of
competitive bidding or justification for sole source purchases. See Table 3 for the
number of expenditures and questioned costs for each center audited.

Table 3: Instances of Non-Compliance for Expenditures Greater than $3,000 Resulting In
Questioned Costs
                                        Center Name              Instances of Non-
Non-Compliance                            (Operator)              Compliance and
                                                                 Questioned Costs

Inadequate sole-source justification Los Angeles                       (YWCA)                8                $ 44,077
                                     Red Rock                          (Adams)               2                  20,697
                                     Turner                              (ETR)               4                  61,800
                                     Oneonta                             (ETR)               5                  21,864
                                     Clearfield                          (MTC)              16                  77,866
                                     Paul Simon                          (MTC)              23                 224,198
                                                                      Sub-total:            58               $ 450,502

Circumvented competitive bidding                Los Angeles            (YWCA)                7                $ 28,787
                                                Turner                   (ETR)              14                 164,829
                                                                      Sub-total:            21               $ 193,616

Expenditures not supported by                   Red Rock               (Adams)              11                $ 97,198
properly awarded Blank Purchase                 Turner                   (ETR)              26                 324,342
Agreement                                                             Sub-total:            37               $ 421,540

Expenditures made without a                     Clearfield              (MTC)               10               $ 144,428 6
Purchase order or sub-contract                                        Sub-total:            10               $ 144,428

                                                                           Total:          126          $ 1,210,086
Source: OIG analysis of Job Corps’ data.

Projecting these statistical sample results to the total population of expenditures more
than $3,000, we are 95 percent confident there were between $2.8 million and
$4.0 million in questioned costs. 7 The midpoint estimate is $3.4 million.

6
    These 10 expenditures were judgmentally selected and were not included in our statistical projections.
7
    Ibid.

                                      Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                                       6                         Report No. 26-13-001-03-370
                                            U.S. Department of Labor – Office of Inspector General




Best Value Not Ensured Due to Weak Control Environment

These conditions generally occurred because the center operators and centers did not
always follow their procurement SOPs; lacked adequate training and oversight; and did
not have the necessary controls in place. Moreover, ETR had not established effective
controls even though the results of DOL and internal reviews identified procurement
deficiencies and lack of management controls during calendar years 2008-2010.
Procurement deficiencies similar to our results were reported for each review, including
ETR centers’ non-compliance with SOPs, not advertising publicly, not obtaining three
bids, and not performing cost or price analysis. Consequently, DOL contracting officials
did not approve ETR’s procurement system. In addition, as a result of the procurement
deficiencies identified during this series of audits, Job Corps fully withdrew its approval of
the YWCA and partially withdrew its approval of MTC’s procurement system. These
center operators and centers can improve their procurement SOPs to include requiring
adequate documentation, evaluator signatures, and the specific steps to ensure all sub-
contracts and expenditures are advertised, evaluated, and costs supported. For example,
specific guidance for justifying sole-source procurement should result in more effective
efforts to solicit multiple sources (such as market research and direct solicitations) and
improved documentation. As such, these center operators and centers did not establish
the necessary controls, including procedures and oversight, to ensure compliance and
best value to the government.

As stated earlier, center operators are required to adhere to certain aspects of the FAR
by their contracts and Job Corps’ PRH. The procurement and property management
sections of those contracts provide:

       The center shall establish systems to procure property, services, and
       supplies in a cost-efficient and environmentally-friendly manner in
       accordance with government policies. The contractor shall also establish
       systems to provide procedures for receipt and accountability of
       government-owned property, material, and supplies, in accordance with
       PRH 5.6.

Further, Job Corps’ PRH, section 5.6, R1 indicated that center operators and Outreach
and Admissions/Career Transition Services contractors shall follow all applicable
procurement regulations, to include those contained in the FAR.

At the start of our six audits, ETA agreed in part that center operators were required by
their contracts and Job Corps’ PRH to comply with the FAR procurement requirements,
but did not cite the specific requirements. However, ETR, Adams, and MTC disagreed
they had to comply with all of the FAR procurement requirements, including the specific
requirements for Federal agencies, because they were private contractors and these
requirements only applied to Federal agencies. This occurred even though MTC initially




                           Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                            7                         Report No. 26-13-001-03-370
                                                      U.S. Department of Labor – Office of Inspector General


agreed with our conclusions for those sub-contracts that required ETA’s consent; 8 and
ETR’s SOPs specifically required compliance with the FAR sections they later stated
were not applicable. In general. the center operators audited did not agree with our
findings and questioned costs. Regardless of the FAR sections that were applicable,
they believed their sub-contracting resulted in fair and open competition and ensured
the best value to the government.

In August 2011, ETA clarified its position that contracted center operators were not
required to comply with the FAR in its entirety and indicated that only the following
sections of the FAR were applicable:

        •    Part 52, Solicitation Provisions and Contract Clauses
        •    Subpart 52.244-5, Competition in Subcontracting
        •    Subpart 52.216-7, Allowable Cost and Payment
        •    Part 44, Subcontracting Policies and Procedures
        •    Part 9, Responsible Prospective Contractors

These sections of the FAR, while not requiring direct compliance with all aspects of the
FAR, required center operators to establish procurement policies and procedures that
are consistent with the FAR.

In September 2011, ETA informed us that the DOL’s Office of the Solicitor (Solicitor)
agreed with ETA’s position that center operators were not required to comply with the
FAR in its entirety. Based on feedback provided by ETA and the Solicitor, and
information provided to us by the center operators in response to our reports, we
concurred. However, we affirm that the FAR principles applied and the center operators
were required to establish and comply with procurement procedures that were
consistent with the FAR. This included ensuring sub-contract and purchase order
awards were based on proper evaluation/responsibility checks and sole-source
justification and claimed amounts were adequately supported. As such, we maintain the
exceptions described in each of our six reports and summarized in this report.

ETA also did not provide adequate oversight of the contracted center operators to
determine whether their centers’ use of competition and best value were achieved in their
sub-contracting. Additionally, sub-contracting was not reviewed during on-site center
assessments performed by Job Corps; and sub-contracts submitted to ETA contracting
officials for consent prior to award were not consistently reviewed for compliance.
Furthermore, the procurement systems for contracted center operators were reviewed by
Job Corps only once every three years. Center operators with approved procurement
systems received less oversight, including limiting the subcontracts submitted to ETA for
consent. These reviews did not effectively ensure compliance with center operator and
center SOPs and the FAR at the six centers we audited. For example, MTC’s Clearfield
received a CPSR in 2005. The CPSR identified procurement deficiencies and weak
management controls relating to sole-source procurement and the lack of documentation
8
 Center operators with an approved CPSR are required to obtain ETA consent for only health related sub-contracts.
Center operators without an approved CPSR are required to obtain ETA consent for all sub-contracts.

                                  Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                                   8                         Report No. 26-13-001-03-370
                                            U.S. Department of Labor – Office of Inspector General


for cost or price analysis. Although MTC prepared a corrective action plan for these
findings, Clearfield still had problems justifying sole-source procurement and conducting
cost or price analysis in 2011. ETA also did not effectively enforce the center operators’
adherence to the related procurement requirements for Job Corps centers and provide
adequate oversight of their sub-contracting practices, which contributed to these
conditions.

Questioned Costs Could Be as High as $11.5 million

In our six reports, we identified $8.7 million in total questioned costs – the total value of
the sub-contracts and purchase orders awarded without ensuring best value. Specifically,
this amount was the sum of $7.5 million relating to the improperly awarded sub-contracts
and our statistical sample results of $1.2 million relating to expenditures more than
$3,000. As such, the aggregate questioned costs could be as high as $11.5 million ($7.5
million plus our $4.0 million upper limit projection). However, we acknowledge that the
government received services relating to these sub-contracts and recognize that in
situations where the difference is undeterminable, no cost recoveries will occur.

RECOMMENDATIONS AND AGENCY RESPONSE

The recommendations for each of our six audits were similar. In summary, we
recommended the Assistant Secretary for Employment and Training recover the
questioned costs we identified, taking into account the amount of excess funds paid by
the contractors while recognizing the value of the goods and services received.
Furthermore, we recommended the Assistant Secretary direct the center operators to
establish procedures, training, and oversight to ensure compliance with the applicable
sections of the FAR; and direct ETA contract personnel and Job Corps’ regional staff to
review all future sub-contracts submitted by the six centers for FAR compliance and
consent prior to award and during on-site assessments conducted at the centers.


ETA generally agreed with our findings and recommendations and indicated it has made
programmatic changes to improve guidance and oversight over center sub-contracting.
These changes include:

       •	 Job Corps updating its PRH to address sub-contracting responsibilities and
          procedures.

       •	 ETA updating its policies and procedures for administration of cost
          reimbursable contracts and their associated sub-contracts with emphasis on
          cost or price analyses to ensure (1) fair and reasonable pricing, (2) price
          competition, (3) market research, and (4) sub-contractor responsibilities.

       •	 ETA providing guidance and training to its contracting officers on proper
          oversight and monitoring of contractors purchasing systems, including
          ensuring contractors are held accountable for managing sub-contracts in

                           Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                            9                         Report No. 26-13-001-03-370
                                           U.S. Department of Labor – Office of Inspector General


          compliance with the FAR.

      •	 Job Corps conducting financial reviews during center assessments and
         monitoring visits, including reviewing sub-contracts for FAR compliance.

      •	 ETA withdrawing the approval of contracting purchasing systems as
         appropriate and in accordance with the FAR; and requiring the contractors to
         furnish corrective action plans to qualify the system for approval.


If ETA’s corrective actions effectively address the recommendations cited in our reports,
oversight of center subcontracting by the center operators and ETA will improve and
ensure best value to the government. ETA’s written response to this summary report is
included in its entirety in Appendix D.


We appreciate the cooperation and courtesies ETA and the center operators extended
to the Office of Inspector General during our audits. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                          Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                           10                        Report No. 26-13-001-03-370
                           U.S. Department of Labor – Office of Inspector General




Appendices





          Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                           11                        Report No. 26-13-001-03-370
                  U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





 Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                  12                        Report No. 26-13-001-03-370
                                                       U.S. Department of Labor – Office of Inspector General


                                                                                              Appendix A
Background

Job Corps is authorized by Title I-C of the WIA and is administered by ETA’s Office of
Job Corps under the leadership of the National Director and supported by a National
Office staff and a field network of 6 regional offices.

The purpose of Job Corps is to assist disadvantaged youth ages 16 through 24 who
need and can benefit from a comprehensive program, operated primarily in the
residential setting of a Job Corps center, to become more responsible, employable, and
productive citizens by developing employability skills. Its training activities and living
facilities are housed within 125 centers throughout the country.

The six centers audited, the respective center operators, locations, audit scope, contract
dates, and contract amounts are detailed below:

      Center              Private            Location            Audit          Contract         Contract
      Name                Center                                 Scope           Dates           Amount
                         Operator
                        Contractor
 Los Angeles               YWCA              California       10/1/2009 -       5/1/2006 -      $88 Million
                                                               9/30/2010        4/30/2011

 Red Rock                 Adams            Pennsylvania       5/1/2010 -       5/1/2010 –       $49 Million
                                                              12/31/2010       4/30/2015
 Turner                     ETR               Georgia         1/1/2010 -       7/1/2005 –         $107
                                                              12/31/2010       6/30/2010          Million
 Oneonta                    ETR              New York         4/1/2010 –       7/1/2009 –       $48 Million
                                                              3/31/2011        6/30/2014
 Clearfield                 MTC                 Utah          4/1/2010 –       4/1/2010 –         $146
                                                              3/31/2011        3/31/2015          Million
 Paul Simon                 MTC                Illinois       4/1/2010 –       8/1/2008 –       $49 Million
                                                              3/31/2011        7/31/2013
Source: Issued OIG audit reports.




                                    Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                                     13                        Report No. 26-13-001-03-370
                  U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





 Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                  14                        Report No. 26-13-001-03-370
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix B
Objectives, Scope, Methodology, and Criteria

Objective

From March 31, 2011, through June 22, 2012, we issued a series of reports for our
performance audits of six Job Corps centers operated by private contractors that
addressed the following question:

      Did the centers and respective center operators ensure best value to the
      Federal government when awarding sub-contracts and claiming costs?

Scope

The six audits covered sub-contracts managed and expenditures incurred by Los Angeles
(YWCA), Red Rock (Adams), Turner (ETR), Oneonta (ETR), Clearfield (MTC), and Paul
Simon (MTC) from October 1, 2009, to March 31, 2011. See Appendix A for details.

We reviewed all sub-contracts (and their related invoice payments) more than $25,000
managed by the center operators and centers during this period, which amounted to 44
sub-contracts totaling $17.4 million; and 4 strategic agreements (sub-contracts) awarded by
a corporate office. We also reviewed a statistical sample of 341 of 1,038 expenditures more
than $3,000 from the 44 center sub-contracts we reviewed, representing $3.3 million (or
41 percent of aggregate expenditures), and 10 judgmentally selected expenditures totaling
approximately $144,000. These expenditures were generally initiated by purchase orders
and were separate items from the 44 sub-contracts we reviewed. The center operator
contracts to operate their centers were not included in our audits because they were
awarded by ETA. No center sub-contracts were awarded by ETA. We performed on-site
work at these six centers and ETA and Job Corps’ headquarters in Washington, DC.

We conducted these six performance audits in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                          Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                           15                        Report No. 26-13-001-03-370
                                           U.S. Department of Labor – Office of Inspector General


Methodology

In general, we interviewed ETA, center operator, and Job Corps staff; compared criteria
to center procurement activities, including Job Corps’ PRH and Procurement
Compendium, the FAR, center operator and center SOPs, center operators’ contracts,
and center operator and Job Corps’ Regional Offices’ assessments of center
operations; reviewed applicable processes and controls; analyzed sub-contracts,
expenses, and related supporting documentation; and performed process walkthroughs
with key center operator staff.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases. We evaluated the centers’ internal controls for
reasonable assurance that the awarding of sub-contracts and payment of invoices were
done according to Federal and Job Corps requirements. Our consideration of these
controls would not necessarily disclose all matters that might be reportable conditions.
In addition, inherent limitations of internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected.

We also relied on the computer-processed data contained in the check registers. We
assessed the reliability of the data by (1) performing various tests of required data
elements; and (2) interviewing ETA, Job Corps, and center operator staff
knowledgeable of the data. Based on these tests and assessments, we concluded the
data was sufficiently reliable to address our audit objective.

In aggregate, our testing universe consisted of 44 sub-contracts (and their related
invoice payments) and 1,038 expenditures. We tested all 44 sub-contracts and stratified
the universe of expenditures into strata based on the dollar amounts. We reviewed the
subcontracts and their related invoice payments for compliance with select FAR
principles and center operator and center SOPs, including awarding sub-contracts
based on fair and open competition, cost or price analysis, and responsibility checks
(FAR Subpart 44.202-2); evaluating bids based on factors contained in the solicitation
(FAR Subpart 44.202-2); obtaining bids from multiple sources (FAR Subpart 13.104);
documenting justification for sole-source procurement or why a lowest bidder was not
selected (FAR Subpart 44.202-2 and Subpart 52.244-5); and adequate supporting
documentation for payments, such as detailed invoices (FAR Subpart 52.216-7). We
obtained the contract files and reviewed all supporting documentation provided by the
centers to assess compliance regarding the award of sub-contracts. We also tested the
check registers for completeness by verifying issuance dates, check numbers for
numerical sequence, and missing checks had been appropriately voided.




                          Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                           16                        Report No. 26-13-001-03-370
                                            U.S. Department of Labor – Office of Inspector General


For purchase orders issued by the six centers, we obtained the check registers for the
audit periods and removed checks related to payroll, checks less than $3,000,
payments related to the 44 sub-contracts reviewed, and payments for utilities. This left a
universe of 1,038 expenditures. We used statistical sampling to select a sample of 341
expenditures and determined whether the expenditures complied with the center
operators and centers’ SOPs and select aspects of the FAR with regards to sole-source
justification, competitive bidding, blank purchase agreements, and purchase orders or
sub-contracts.

Criteria

We used the following criteria to perform this audit:

   •   FAR
   •   Job Corps’ PRH
   •   Job Corps’ Procurement Compendium
   •   Center Operator and Center SOPs
   •   Center Operator Contracts




                           Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                            17                        Report No. 26-13-001-03-370
                  U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





 Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                  18                        Report No. 26-13-001-03-370
                                      U.S. Department of Labor – Office of Inspector General


                                                                             Appendix C
Acronyms

Adams       Adams and Associates, Incorporated

DOL         U.S. Department of Labor

CPSR        Center Procurement System Reviews

ETA         Employment and Training Administration

ETR         Education and Training Resources, Incorporated

FAR         Federal Acquisition Regulations

MTC         Management and Training Corporation, Incorporated

OIG         Office of Inspector General

PRH         Policy and Requirements Handbook

SOP         Standard Operating Procedures

Solicitor   Office of the Solicitor

WIA         Workforce Investment Act of 1998

YWCA        Young Women’s Christian Association of Greater Los Angeles




                  Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                   19                        Report No. 26-13-001-03-370
                  U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





 Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                  20                        Report No. 26-13-001-03-370
                                                    U.S. Department of Labor – Office of Inspector General


                                                                                          Appendix D
ETA Response
9




9
    Report number changed to 26-13-001-03-370.

                                   Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                                    21                        Report No. 26-13-001-03-370
                 U.S. Department of Labor – Office of Inspector General




Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                 22                        Report No. 26-13-001-03-370
                                           U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix E
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director); Alvin Edwards,
Michael Elliott, and Jon K. Ling (Audit Managers); Renee Harrison-Womack, Patrick
Trager, and Dr. James Turkvant (Lead Auditors); Nicholas Cumby, Norma Estrada,
Miguel Hughes, Ronald Larry, Stephen Lawrence, Sheila Lay, Daniel Rhodes, Lorenzo
Thornton, and Travis Williams (Auditors); and Steven Witherspoon (Reviewer).
Additional assistance in preparing this report was provided by Catherine Christian and
Alexander Budge (Auditors).




                          Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                                           23                        Report No. 26-13-001-03-370
                  U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





 Summary of Sub-Contracting at Six Privately Operated Job Corps Centers
                  24                        Report No. 26-13-001-03-370
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	      http://www.oig.dol.gov/hotlineform.htm
Email:	       hotline@oig.dol.gov

Telephone:	   1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
